Department of Homeland Security
   Ofﬁce of Inspector General

                 The State of West Virginia's 

               Management of State Homeland 

              Security Program Grants Awarded 

            During Fiscal Years 2005 through 2007 





OIG-10-20                                      November 2009
October 27, 2009

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Ms. Richards:

Williams, Adley & Company, LLP performed an audit of the State of West Virginia’s
management of the Department of Homeland Security’s State Homeland Security
Program grants for Fiscal Years 2005 through 2007. The audit was performed in
accordance with our Task Order No. TPD-FIG-BPA-07-0013-0072, dated September 27,
2008. This report presents audit results and includes recommendations to help improve
the State’s management of the audited State Homeland Security Program grants.

We conducted our audit in accordance with applicable Government Auditing Standards,
2007 revision. The audit was a performance audit as defined by Chapter 1 of the
Standards and included a review and report of program activities with a compliance
element. Although this audit report comments on costs claimed by the state, we did not
perform a financial audit, the purpose of which would be to render an opinion on the
State of West Virginia’s financial statements or funds claimed in the Financial Status
Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please contact me on (202) 371-1397.

Sincerely,

Williams, Adley & Company, LLP




Jocelyn A. Hill
Partner



1250 H Street, NW, Suite 1150 . Washington, DC 20005 . (202) 371-1397 . Fax: (202) 371-9161
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1

Background ........................................................................................................................ 2 

Results of Audit ................................................................................................................. 6 


     State Grants Management Practices Were Generally Effective, But Require Some 

         Improvements ........................................................................................................ 6 


     Risk Assessment Was Not Documented ...................................................................... 7 

     Recommendation ......................................................................................................... 7 

     Management Comments and Auditors’ Analysis ........................................................ 8 


     Analysis of Capabilities and Performance Was Not Performed .................................. 8 

     Recommendation ......................................................................................................... 9 

     Management Comments and Auditors’ Analysis ........................................................ 9 


     Subgrantee Monitoring Procedures and On-Site Visits Were Insufficient ................ 10 

     Recommendations ...................................................................................................... 12 

     Management Comments and Auditors’ Analysis ...................................................... 12 


     Grants Funds Were Not Obligated Timely ................................................................ 13 

     Recommendation ....................................................................................................... 14 

     Management Comments and Auditors’ Analysis ...................................................... 15 


     Detailed Equipment List Was Not Maintained .......................................................... 15 

     Recommendation ....................................................................................................... 17 

     Management Comments and Auditors’ Analysis ...................................................... 17 


     Financial Status Reports Were Submitted Late ......................................................... 18 

     Recommendation ....................................................................................................... 19 

     Management Comments and Auditors’ Analysis ...................................................... 19 


Appendices
     Appendix A:              Purpose, Scope, and Methodology .................................................. 20 

     Appendix B:              Organization Chart .......................................................................... 23 

     Appendix C:              Management Comments to the Draft Report .................................. 24 

     Appendix D:              Report Distribution .......................................................................... 29 


Abbreviations
     DHS                      Department of Homeland Security 

     FEMA                     Federal Emergency Management Agency 

     FY                       Fiscal Year

     OIG                      Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                     Williams, Adley & Company, LLP completed an audit of the
                     Department of Homeland Security State Homeland Security
                     Program grants awarded during Fiscal Years 2005 through 2007 to
                     the State of West Virginia. The objective of this audit was to
                     determine whether the State distributed and spent Homeland
                     Security Program funds strategically, effectively, and in
                     compliance with laws, regulations, and guidance. The audit
                     included a review of approximately $23 million in State Homeland
                     Security Program grants included in the approximately $38 million
                     of Homeland Security grants that the Federal Emergency
                     Management Agency awarded to the State of West Virginia.

                     Overall, the State did an efficient and effective job administering
                     the program requirements, distributing grant funds, and ensuring
                     that all of the available funds were used. The State formed
                     working groups to develop the State strategy for an effective
                     Homeland Security Program and to define measurable goals. The
                     State ensured that funded plans linked all hazards capabilities to
                     goals by requiring subgrantees to identify the specific purpose for
                     the grant funds. The State distributed funds based on subgrantees’
                     justifications describing how their project plans would support
                     goals within the State’s strategy. The State generally administered
                     grants in compliance with grant guidance and regulations.

                     Improvements are needed in the State’s management of the State
                     Homeland Security Program grants to document threats,
                     vulnerabilities, and risk assessments; analyze capabilities and
                     performance; increase subgrantee oversight; improve timeliness of
                     obligations to subgrantees; ensure maintenance of equipment
                     listings; and improve timeliness of Financial Status Report
                     submissions. We are making seven recommendations to the
                     Federal Emergency Management Agency that, if implemented,
                     should strengthen program management, performance, and
                     oversight. Federal Emergency Management Agency and State
                     officials verbally concurred with the recommendations. State
                     officials provided a written response to the recommendations,
                     which is included as Appendix C.


       The State of West Virginia’s Management of State Homeland Security Program Grants 

                         Awarded During Fiscal Years 2005 through 2007 


                                            Page 1
Background
                   The Homeland Security Grant Program is a federal assistance grant
                   program administered by the U.S. Department of Homeland
                   Security (DHS), Grant Programs Directorate within the Federal
                   Emergency Management Agency (FEMA). The current Grant
                   Programs Directorate, hereafter referred to as FEMA, began with
                   the Office of Domestic Preparedness, which was transferred from
                   the Department of Justice to DHS in March 2003. The Office of
                   Domestic Preparedness was subsequently consolidated into the
                   Office of State and Local Government Coordination and
                   Preparedness which, in part, became the Office of Grants and
                   Training, and which subsequently became part of FEMA.

                   Although the grant program was transferred to DHS, applicable
                   Department of Justice grant regulations and legacy systems were
                   still used, as needed, to administer the program. For example,
                   through Fiscal Year (FY) 2008, the Office of Justice Programs’
                   Grants Management System was used to receive grantee
                   applications and to administer the award and reporting processes.
                   Also, prior to the transfer, the State Administrative Agency entered
                   payment data into the Office of Justice Programs’ Phone Activated
                   Paperless Request System, which was a drawdown payment
                   system for grant funds. That payment system was replaced in
                   May 2007 by FEMA’s Payment and Reporting System, which
                   allows grantees to make payment requests and complete and
                   transmit their quarterly Financial Status Reports online.

                   Homeland Security Grant Program

                   The Homeland Security Grant Program provides federal funding to
                   help states and local agencies enhance their capabilities to prevent,
                   deter, respond to, and recover from threats or acts of terrorism.
                   The program encompasses several interrelated federal grant
                   programs that together fund a range of preparedness activities,
                   including planning, organization, equipment purchase, training,
                   and exercises, as well as management of administration costs.
                   Depending on the fiscal year, the program included some or all of
                   the following:

                   .	 State Homeland Security Program provides financial
                      assistance directly to each of the states and territories to
                      prevent, respond to, and recover from acts of terrorism. The
                      program supports the implementation of the State Homeland


     The State of West Virginia’s Management of State Homeland Security Program Grants 

                       Awarded During Fiscal Years 2005 through 2007 


                                          Page 2
                  Security Strategy to address the identified planning, equipment,
                  training, and exercise needs.

              .	 Urban Areas Security Initiative provides financial assistance
                 to address the unique planning, equipment, training and
                 exercise needs of high risk urban areas, and to assist them in
                 building an enhanced and sustainable capacity to prevent,
                 respond to, and recover from threats or acts of terrorism.
                 Allowable costs for the urban areas are consistent with the
                 State Homeland Security Program. Funding is expended based
                 on the Urban Area Homeland Security Strategies.

              .	 Law Enforcement Terrorism Prevention Program provides
                 law enforcement communities with funds to support the
                 following prevention activities: information sharing to
                 preempt terrorist attacks; target hardening to reduce
                 vulnerability of selected high value targets; recognition and
                 mapping of potential or developing threats; counterterrorism
                 and security planning; interoperable communications;
                 interdiction of terrorists before they can execute a threat; and
                 intervention activities that prevent terrorists from executing a
                 threat. These funds may be used for planning, organization,
                 training, exercises, and equipment.

              .	 Citizen Corps Program is the department’s grass-roots
                 initiative to actively involve all citizens in hometown security
                 through personal preparedness, training, and volunteer service.
                 Funds are used to support Citizen Corps Councils with efforts
                 to engage citizens in preventing, preparing for, and responding
                 to all hazards, including planning and evaluation, public
                 education and communication, training, participation in
                 exercises, providing proper equipment to citizens with a role in
                 response, and management of Citizen Corps volunteer
                 programs and activities.

              .	 Metropolitan Medical Response System Program supports
                 jurisdictions in enhancing and sustaining an integrated,
                 systematic, mass casualty incident preparedness program to
                 respond to mass casualty events during the first hours of a
                 response. This includes the planning, organizing, training, and
                 equipping concepts, principles, and techniques, which enhance
                 local jurisdictions’ preparedness to respond to the range of
                 mass casualty incidents – from chemical, biological,
                 radiological, nuclear, and explosive events to epidemic


The State of West Virginia’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2005 through 2007 


                                     Page 3
                  outbreaks, natural disasters, and large-scale hazardous
                  materials incidents.

              .   Emergency Management Performance Grant Program
                  funds are used to support comprehensive emergency
                  management at the state and local levels and to encourage the
                  improvement of mitigation, preparedness, response, and
                  recovery capabilities for all hazards. DHS is responsible for
                  leading and supporting the nation in a comprehensive, risk-
                  based, all-hazards emergency management program, and these
                  performance grant funds are a primary means of ensuring the
                  development and maintenance of such a program. Funds may
                  also be used to support activities for managing consequences of
                  acts of terrorism.

              State Administrative Agency

              State governors appoint a State Administrative Agency to
              administer the Homeland Security Grant Program. The State
              Administrative Agency is responsible for managing the grant
              program in accordance with established federal guidelines, and is
              also responsible for allocating funds subgranted to local, regional,
              and other state government agencies.

              The West Virginia Department of Military Affairs and Public
              Safety, Division of Homeland Security (the State Administrative
              Agency), provides guidance, direction, and coordination in
              mobilizing, organizing, and preparing West Virginia for
              responding to acts of terrorism and man-made or natural disasters.
              The Cabinet Secretary of the West Virginia Department of Military
              Affairs and Public Safety, appointed by the Governor, serves as
              West Virginia’s Homeland Security Advisor. The West Virginia
              Department of Military Affairs and Public Safety Division’s
              organization structure is depicted in the organization chart in
              Appendix B.

              The State Administrative Agency formed and chartered a working
              group to develop the State’s security assessment and strategy
              program. This group and subsequently formed sub-groups
              consisting of representatives from West Virginia’s Office of
              Emergency Management, State Police, Fire Marshal, Department
              of Health and Human Resources, and Department of
              Environmental Protection. The working groups, using a
              combination of effort between the State and the local jurisdictions,
              determined the capabilities and needs of the State.

The State of West Virginia’s Management of State Homeland Security Program Grants
                  Awarded During Fiscal Years 2005 through 2007

                                     Page 4
              Additionally, the State of West Virginia is divided into six
              Response Regions that serve as the jurisdictions to implement the
              State’s strategy for an effective Homeland Security Program. Each
              region is comprised of a grouping of 7 to 12 counties.

              Grant Funding

              The State of West Virginia received approximately $38 million in
              funds from the Homeland Security Program Grants during
              FYs 2005 through 2007. Of this amount, over $23 million was
              from the State Homeland Security Program. West Virginia did not
              receive any Urban Areas Security Initiative funding during this
              timeframe. The State Administrative Agency awarded subgrants
              to 39 counties, 18 cities, 11 state agencies, 6 regions, and 3 non­
              profit organizations. Table 1 shows a breakdown of the grant
              funds by year and funded activity. Note that not all funded
              activities were part of the Homeland Security Grant Program
              during each of the fiscal years.

                                                     Table 1

                           West Virginia Homeland Security Grant Awards
                                   Fiscal Years 2005 through 2007

                                          Grant Programs (‘000s)
                                          2005        2006         2007
                                        Homeland Homeland Homeland
                                         Security   Security     Security
                                          Grant      Grant        Grant
                 Funded Activity        Program     Program      Program              Total
                 State Homeland
                 Security Program           $11,878            $7,570       $3,820    $23,268
                 Urban Areas
                 Security Initiative                 0             0             0            0
                 Law Enforcement
                 Terrorism
                 Prevention
                 Program                          4,319         5,510        2,730     12,559
                 Citizen Corps
                 Program                           150           214           162       526
                 Metropolitan
                 Medical Response
                 System Program                      0             0             0            0
                 Emergency
                 Management
                 Performance Grant                          Not           Not
                 Program                          1,942   Applicable    Applicable      1,942
                 Total                      $18,289          $13,294        $6,712    $38,295


The State of West Virginia’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2005 through 2007 


                                       Page 5 

                    Williams, Adley & Company, LLP completed an audit of the State
                    of West Virginia’s management of the State Homeland Security
                    Program for FYs 2005 through 2007. The objective of this audit
                    was to determine whether the State distributed and spent
                    Homeland Security Grant Program funds strategically, effectively,
                    and in compliance with laws, regulations, and guidance. Nine
                    researchable questions, provided by the DHS Office of Inspector
                    General (OIG), established the framework for the audit. The
                    researchable questions were related to the State Administrative
                    Agency’s planning, management, and evaluations of grant
                    activities. Appendix A provides additional details on the purpose,
                    scope, and methodology of this audit, including the nine
                    researchable questions.


Results of Audit
     State Grants Management Practices Were Generally Effective,
     But Require Some Improvements
           Overall, the State Administrative Agency did an efficient and effective job
           of administering the program requirements, distributing grant funds, and
           ensuring that all of the available funds were used. The State developed its
           strategy and defined measurable goals and objectives through working
           groups, and created a response team to review the strategy and goals on a
           monthly basis. The State ensured that funded plans linked all hazards
           capabilities to goals by requiring subgrantees to identify the specific
           purpose for the grant funds and the goal(s) they would support.
           Furthermore, the State distributed funds and resources based on
           justifications submitted by subgrantees describing how their project plans
           would support specific goals within the State’s strategy. Additionally, the
           State generally administered grants in compliance with grant guidance and
           regulations.

           However, as demonstrated by the results contained in this report,
           improvements are needed with respect to documenting the risk assessment
           that defined the goals and objectives included in the State’s strategy;
           documenting the analysis performed to measure capabilities and
           performance; monitoring subgrantee performance; obligating funds to
           subgrantees within 60 days of receipt from FEMA; maintaining a detailed
           equipment list; and submitting timely Financial Status Reports.




      The State of West Virginia’s Management of State Homeland Security Program Grants 

                        Awarded During Fiscal Years 2005 through 2007 


                                           Page 6
Risk Assessment Was Not Documented
      The State Administrative Agency was unable to provide documentation to
      support the identification of primary threats and vulnerabilities, and the
      evidence used to measure the risk of threats and vulnerabilities. While the
      State Administrative Agency did use committees and subcommittees to
      evaluate threats and vulnerabilities, it did not create and maintain
      documentation to support the evaluations. This occurred because the State
      did not have written policies and procedures in place to require
      documentation of the primary threats and vulnerabilities identified.

      According to the Office of Domestic Preparedness, Financial
      Management Guide, Chapter 3, dated January 2006, all grantees, including
      sub-recipients, should employ pre-planning strategies, to include such
      activities as threat and vulnerability assessments, needs assessments, and
      gap analyses, prior to making applications for grant awards. Based upon
      the results of these activities, the state should establish and document the
      funding priorities.

      The Code of Federal Regulations Title 28 § 66.42, Retention and access
      requirements for records, applies to all financial and programmatic
      records, supporting documents, statistical records, and other records of
      grantees or subgrantees which are: (i) required to be maintained by the
      terms of this federal regulation, program regulations, or the grant
      agreement, or (ii) otherwise reasonably considered as pertinent to program
      regulations or the grant agreement.

      Lack of written policies and procedures on documenting the identification
      of primary threats and vulnerabilities and the corresponding risk
      assessment prevented the State from compiling necessary supporting
      documentation. Without the supporting documentation, there is no
      assurance the information is accurate. Without accurate risk assessments,
      the State may be hindered in evaluating progress in mitigating these risks.

      Recommendation
               We recommend that the Administrator, Federal Emergency
               Management Agency, require the State Administrative Agency to:

               Recommendation #1: Develop procedures for developing and
               retaining documentation on how data was used in its identification
               and analysis of primary threats and vulnerabilities, and the
               corresponding risk assessment.



 The State of West Virginia’s Management of State Homeland Security Program Grants 

                   Awarded During Fiscal Years 2005 through 2007 


                                      Page 7
      Management Comments and Auditors’ Analysis
               FEMA officials verbally concurred with the recommendation.
               FEMA explained that its Cost to Capability initiative will assist
               states in addressing this issue in the future. According to FEMA
               officials, the Cost to Capability initiative will rollout nationwide in
               the near-term.

               We received verbal and written agreement with the
               recommendation from the State Administrative Agency. The State
               Administrative Agency stated that it is currently in the process of
               revising its State Homeland Security Strategy and that a clear and
               current understanding of the risk and threats to the state is
               fundamental to this process. To that end, the state has collected
               and continues to collect statewide risk information as a basis for its
               strategy. The State Administrative Agency plans to develop and
               implement a written policy and corresponding procedures in
               accordance with the recommendation.

               We believe that the State Administrative Agency’s actions address
               the intent of the recommendation.

               The Administrator, Federal Emergency Management Agency,
               needs to provide corrective actions for this recommendation and a
               plan to implement within 90 days.


Analysis of Capabilities and Performance Was Not Performed
      The State Administrative Agency did not perform an analysis of
      capabilities and performance with respect to equipment purchased and
      training obtained. Specifically, there is no evidence that monthly
      subgrantee reports or After Action Reports were reviewed and analyzed to
      ensure that the goals and objectives of the grant were being achieved or
      were still in line with the real threats and vulnerabilities of the State. As a
      result, there was no assurance that the equipment purchased and the
      training conducted was in accordance with the specific goals and
      objectives of the State Strategy. In addition, the State Administrative
      Agency does not have written policies and procedures requiring analysis
      of capabilities and performance, and the documentation of such, in order
      to determine improvements in performance and progress towards
      achieving program goals.

      According to the FY 2006 Office of Justice Programs Financial Guide Part
      III - Chapter 11: Reporting Requirements - Government Performance and

 The State of West Virginia’s Management of State Homeland Security Program Grants 

                   Awarded During Fiscal Years 2005 through 2007 


                                      Page 8
     Results Act, funding recipients agree to collect data appropriate to
     facilitate reporting requirements and to ensure that valid and auditable
     source documentation is available to support performance data.

     The Code of Federal Regulations Title 28 § 66.42, Retention and access
     requirements for records, applies to all financial and programmatic
     records, supporting documents, statistical records, and other records of
     grantees or subgrantees which are: (i) required to be maintained by the
     terms of this federal regulation, program regulations, or the grant
     agreement, or (ii) otherwise reasonably considered as pertinent to program
     regulations or the grant agreement.

     Also, FEMA Homeland Security Grant Program Guidance require an
     After Action Report for each exercise conducted with grant funds to be
     submitted within 60 days following completion of the exercise. The lack
     of procedures for analyzing performance documents and reports prevents
     the proper evaluation of the State’s strategies to ensure that the goals and
     objectives are being achieved, or are still in line with the real threats and
     vulnerabilities of the State. DHS uses the performance data to assess
     overall program effectiveness and impact, and to report results to
     Congress and the Office of Management and Budget. Without good data,
     DHS may be hindered in properly determining the program effectiveness
     and impact, and may report imprecise results.

     Recommendation
              We recommend that the Administrator, Federal Emergency
              Management Agency, require the State Administrative Agency to:

              Recommendation #2: Develop and implement procedures for
              analyzing capability and performance data to determine
              improvements in performance and progress towards achieving
              program goals.

     Management Comments and Auditors’ Analysis
              FEMA officials verbally concurred with the recommendation and
              explained that its Cost to Capability initiative will assist states in
              addressing this issue in the future. According to FEMA officials,
              the Cost to Capability initiative will roll-out nationwide in the
              near-term.

              We received verbal and written agreement with the
              recommendation from the State Administrative Agency. The State
              Administrative Agency understands the importance of analyzing

The State of West Virginia’s Management of State Homeland Security Program Grants
                  Awarded During Fiscal Years 2005 through 2007

                                     Page 9
               capability and other data to measure progress but indicated that
               during the early years reported herein, the State used its limited
               resources to implement the new grant procedures as best it could.
               The State will revise its Project Concept document to require
               subgrantees to include information about how their proposals will
               improve capability in quantifiable measures. The State
               Administrative Agency will develop and implement procedures for
               measuring progress in on-site and desk monitoring in accordance
               with the recommendation. Finally, the State will expand training
               to include additional education relating to the Target Capabilities
               and how to appropriately incorporate them in preparedness
               planning.

               We believe that the State Administrative Agency’s actions address
               the intent of the recommendation.

               The Administrator, Federal Emergency Management Agency,
               needs to provide corrective actions for this recommendation and a
               plan to implement within 90 days.


Subgrantee Monitoring Procedures and On-Site Visits Were
Insufficient
      The State Administrative Agency needs to improve its monitoring
      procedures and increase the frequency of oversight activities to ensure
      compliance with monitoring requirements. The State’s monitoring
      procedures lack specific attributes needed for effectiveness, and an
      insufficient number of on-site monitoring visits were made.

      According to the DHS Office of Domestic Preparedness Financial
      Management Guide, Chapter 4, dated January 2006, a grant recipient has
      full responsibility for the conduct of the project or activity supported and
      for the results achieved. The recipient must monitor the performance of
      the project to assure adherence to performance goals, time schedules, or
      other requirements as appropriate to the project or the terms of the
      agreement. The recipient is responsible for monitoring the activities of
      any sub-recipients and their compliance with grant requirements.

      The West Virginia Homeland Security Administrative Manual, Chapter
      10, states that desk monitoring is a monthly process in which the State
      Administrative Agency reviews and processes the following reports for
      each subgrantee: Progress Report, Financial Report, Request for
      Reimbursement, and Equipment Listing. The State Administrative
      Agency is to conduct monthly desk monitoring of all subgrant projects

 The State of West Virginia’s Management of State Homeland Security Program Grants 

                   Awarded During Fiscal Years 2005 through 2007 


                                      Page 10
     and, if needed, schedule an on-site monitoring visit when possible or if a
     subgrantee requests a monitoring visit.

     While the State implemented monitoring procedures for its subgrantees,
     the State’s monitoring procedures lack the following attributes needed for
     effectiveness:

     .	 Written plan or schedule for monitoring;
     .	 Documentation of quantifiable goals or criteria to determine the
        effectiveness of each grant specific to each grant year;
     .	 Evaluation of subgrantee programmatic performance or effectiveness;
        and
     .	 Signatures of subgrantee representatives to document that discussion
        of the monitoring results were held.

     Although the West Virginia Homeland Security Administrative Manual
     requires on-site monitoring only as needed, on-site visits are an effective
     way for the State to monitor subgrantee activities. On-site visits help
     fulfill requirements to provide reasonable assurance that federal awards
     are administered in compliance with grant requirements, such as
     accounting of receipts and expenditures, cash management, maintenance
     of adequate financial records, and refunding expenditures disallowed by
     audits.

     During FY 2005, the State Administrative Agency awarded a total of
     74 State Homeland Security Program subgrants to 29 counties, 14 cities,
     2 non-profits, 3 regions, and 9 agencies, but only performed 1 on-site
     monitoring review related to the State Homeland Security Program.
     Correspondingly, for the FY 2006 State Homeland Security Program, the
     State Administrative Agency awarded a total of 43 subgrants to
     23 counties, 3 cities, and 3 agencies, and performed 38 on-site monitoring
     reviews between March 2008 and January 2009. For the FY 2007 grant
     program, monitoring had not yet been performed.

     A lack of staff resources assigned to perform monitoring contributed to the
     low number of on-site visits performed. The State Administrative Agency
     has nonetheless made improvements in the number of on-site monitoring
     reviews performed. Currently, the State has an accountant who performs
     on-site monitoring and a grants specialist who performs desk monitoring.
     Additionally, the State’s written monitoring procedures only require that
     the State Administrative Agency conduct monthly desk monitoring of all
     subgrant projects, while on-site monitoring visits are only to be scheduled
     if such needs present themselves or if subgrantees request monitoring
     visits.


The State of West Virginia’s Management of State Homeland Security Program Grants
                  Awarded During Fiscal Years 2005 through 2007

                                    Page 11
     If the State does not properly monitor subgrantee program performance,
     the State cannot determine whether program goals are accomplished and
     purchased assets are used as intended. Without adequate monitoring there
     can be no verification that grant requirements are met. Further, a lack of
     on-site visits and other procedures to monitor compliance may increase the
     risk of misappropriation or misuse of assets purchased with grant funds.

     Recommendations
              We recommend that the Administrator, Federal Emergency
              Management Agency, require the State Administrative Agency to:

              Recommendation #3: Enhance its subgrantee monitoring
              program to comply with relevant guidance, and

              Recommendation #4: Assess whether sufficient personnel are
              assigned to perform monitoring and to schedule and conduct on-
              site monitoring visits as appropriate.

     Management Comments and Auditors’ Analysis
              FEMA officials verbally concurred with the recommendations but
              clarified that FEMA can recommend, but not require, on-site
              monitoring.

              We received verbal and written agreement with the
              recommendations from the State Administrative Agency. The
              State Administrative Agency stated that its monitoring program
              has evolved during recent years, from 2005 when there were no
              policies and procedures in place, to recent years when monthly
              desk monitoring was performed on all subgrants and on-site
              monitoring was conducted on a sample of subgrantees.

              The State Administrative Agency will review its monitoring policy
              and procedures to incorporate the recommendations. It is the
              State’s intent to conduct at least one on-site monitoring visit to
              100% of the 2007, 2008, and 2009 Homeland Security Grant
              Program subgrantees.

              We believe that the State Administrative Agency’s actions address
              the intent of the recommendations.

              The Administrator, Federal Emergency Management Agency,
              needs to provide corrective actions for this recommendation and a
              plan to implement within 90 days.

The State of West Virginia’s Management of State Homeland Security Program Grants
                  Awarded During Fiscal Years 2005 through 2007

                                    Page 12
Grants Funds Were Not Obligated Timely
      For FYs 2005 through 2007, the State Administrative Agency did not
      obligate grant funds to subgrantees within 60 days of receipt from FEMA,
      as required. Due to delays in allocating funds it was necessary for the
      State Administrative Agency to request two extensions to grant
      performance periods for FY 2005 and one extension for FY 2006.

      The FYs 2005, 2006, and 2007 Program Guidelines and Application Kit
      required that the State obligate award funds to subgrantees within 60 days
      of the award date. Table 2, Days to Obligate Grant Funds, shows the
      actual range and average number of days taken to obligate funds for the
      3 years:
                                         Table 2

                      West Virginia Homeland Security Grant Awards
                              Fiscal Years 2005 through 2007

                                 Days to Obligate Grant Funds
                                         No. of                              Average
                                     Obligations                            Number of
                                    Made Within      Range of Days             Days
             Grant Award                60 days       To Obligate           To Obligate
         FY 2005
         State Homeland                     0             428 to 1,267           692
         Security Program
         FY 2006
         State Homeland                     0              366 to 640            482
         Security Program
         FY 2007
         State Homeland                     0              323 to 415            385
         Security Program

      According to the DHS Office of Domestic Preparedness Financial
      Management Guide, Chapter 3, dated January 2006, grant applicants
      should not wait until they receive an award to start planning how funds
      will be spent. Many grant programs require state and local jurisdictions to
      develop Homeland Security Strategic Plans, as well as descriptions of
      firefighting and emergency response needs, to which all allocations of
      grant funds must be tied.

      Further, all grantees, including sub-recipients, should employ pre-planning
      strategies, to include such activities as threat and vulnerability
      assessments, needs assessments, and gap analyses prior to making
      applications for grant awards. Based upon the results of these activities,
      priorities for funding should then be established. Grantees should

 The State of West Virginia’s Management of State Homeland Security Program Grants
                   Awarded During Fiscal Years 2005 through 2007

                                     Page 13
     leverage all relevant funding and resources from multiple sources
     wherever possible to support and sustain program efforts. Program
     budgets should be developed in a manner that maximizes all resources, is
     not restricted to federal funding alone, avoids duplication of spending,
     achieves identified priorities, and accounts for expenditures.

     The current grant award process within the State Administrative Agency is
     initiated when a subgrantee submits an application for grant funds,
     including goals and objectives in keeping with the State’s strategy, as well
     as a detailed budget on intended grant funds use. In order to prepare an
     application that is acceptable to the State Administrative Agency,
     subgrantee, regional, and State personnel must work together to determine
     what goals and objectives they will work towards and to plan for how the
     grant funds will be spent. Such collaboration occurs before the subgrantee
     application is approved, and may result in subgrantees having to submit
     several budget revisions before approval. The State Administrative
     Agency strongly believes that approval of a realistic budget that takes into
     consideration the State’s goals and objectives outweighs the benefit of
     obligating funds within 60 days.

     FEMA officials explained that there were extenuating circumstances that
     contributed to the grant funds not being obligated in a timely manner in
     FYs 2005 through 2007. In FY 2005, the State spent a significant amount
     of time working to resolve an audit finding that questioned millions of
     dollars, resulting in all programmatic expenditures being placed on hold
     for an extended period. In FY 2006 and 2007, the State struggled to
     establish the regionalization concept and needed to overcome initial
     resistance to this concept, delaying the budget submission and review
     process.

     Despite these extenuating circumstances, FEMA officials stated that the
     State Administrative Agency has made good faith efforts during FYs 2005
     to 2007 to obligate funds in a timelier manner; however, they recognize
     that there is room for continued improvement.

     Recommendation
              We recommend that the Administrator, Federal Emergency
              Management Agency, require the State Administrative Agency to:

              Recommendation #5: Assess the subgrantee budget submission
              and approval process to identify areas for efficiency so that
              obligations can be made within the 60-day requirement.



The State of West Virginia’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2005 through 2007 


                                     Page 14
      Management Comments and Auditors’ Analysis
               FEMA officials verbally concurred with the recommendation.

               We received verbal and written agreement with the
               recommendation from the State Administrative Agency. The State
               Administrative Agency ensures that the required 80% of funding is
               obligated to locals per the guidelines and that projects are
               implemented effectively and efficiently. While the State
               Administrative Agency is very cognizant of the 60-day
               requirement, its primary concern is not to obligate funds quickly,
               but to obligate funds based on a realistic budget, which takes time.
               The State Administrative Agency will continue to strive to obligate
               funding as quickly as possible without jeopardizing public safety.

               We believe that the State Administrative Agency’s actions address
               the intent of the recommendation, but further action will be needed
               to fully implement the recommendation.

               The Administrator, Federal Emergency Management Agency,
               needs to provide corrective actions for this recommendation and a
               plan to implement within 90 days.



Detailed Equipment List Was Not Maintained
      Neither the State, nor all subgrantees, maintained a detailed equipment list
      that provided a full description of all assets purchased with grant funds.
      Although accounting records provided the details of the asset purchases,
      as reported in each reimbursement request package, these details did not
      include all the information required by FEMA guidance and regulations
      and the West Virginia Homeland Security Program Sub-Grant
      Administrative Manual. The State only maintained a list of subgrantee
      programs and the related funding allocations. This finding was also
      included in each of the Single Audit Reports for the State of West Virginia
      for Fiscal Years ending June 30, 2005, 2006, and 2007.

      The Code of Federal Regulations Title 28 § 66.32 (d), Equipment
      Management, requires that procedures for managing equipment (including
      replacement equipment), acquired in whole or in part with grant funds,
      meet the following minimum requirements until disposition takes place:

      .	 Property records must be maintained that include a description of the
         property; a serial number or other identification number; the source of
         property; who holds title; the acquisition date; the federal share in the
 The State of West Virginia’s Management of State Homeland Security Program Grants 

                   Awarded During Fiscal Years 2005 through 2007 


                                      Page 15
          cost of the property; the location, use, and condition of the property;
          and any ultimate disposition data, including the date of disposal and
          sale price of the property.

     .	 A physical inventory of the property must be taken and the results
        reconciled with the property records at least once every two years.

     .	 A control system must be developed to ensure adequate safeguards to
        prevent loss, damage, or theft of the property. Any loss, damage, or
        theft shall be investigated.

     .	 Adequate maintenance procedures must be developed to keep the
        property in good condition.

     .	 Proper sales procedures must be established to ensure the highest
        possible return if the grantee or subgrantee is authorized or required to
        sell the property.

     The State of West Virginia Purchasing Division Inventory Management
     and Surplus Property Disposition Policies and Guidelines, Chapter 3.3,
     Responsibility, states that agencies are responsible for all property under
     their jurisdiction, regardless of its state (removable or fixed), origin, or
     acquisition cost. Agencies are responsible for maintaining equipment
     from date of purchase to date of retirement, such as keeping equipment
     secure, entering assets into the West Virginia Financial Information
     Management System, conducting physical inventories, submitting annual
     certification, and retiring assets properly, all in accordance with policy and
     procedures outlined in the West Virginia guidelines.

     Additionally, the State Administrative Agency Administrative Manual,
     Chapter 9; Record Keeping Requirements, states that subgrantees are
     required to maintain a readily identifiable inventory of equipment
     purchased in whole or in part with grant funds. This inventory is to be
     made a part of the grantee’s official records and be available for review by
     authorized state personnel. Property records shall be maintained
     accurately and include a description of the property; manufacturer’s serial
     number or other identification number; acquisition date and cost; source of
     the property; location, use, and condition of the property; and ultimate
     disposition data, including sales price or the method used to determine
     current fair market value if the grantee reimburses the grantor agency for
     its share. Each piece of equipment shall be entered on and maintained on
     the equipment listing form.

     The State Administrative Agency did not enforce the requirement that
     subgrantees maintain a detailed equipment list. Instead, subgrantees were

The State of West Virginia’s Management of State Homeland Security Program Grants
                  Awarded During Fiscal Years 2005 through 2007

                                    Page 16
     permitted to either submit invoices or a summarized equipment list that
     did not contain all of the required elements. Without a readily available,
     detailed equipment list for each subgrantee, the State Administrative
     Agency cannot effectively account for equipment state-wide to ensure that
     the State is prepared to handle a major catastrophe. Further, without such
     information, the State Administrative Agency may not be able to
     determine whether equipment purchases are duplicative or help meet
     program goals. The Agency also may be hindered in making decisions
     regarding future funding because inaccurate inventories could result in
     potentially misleading or inappropriate grant requests.

     Recommendation
              We recommend that the Administrator, Federal Emergency
              Management Agency, require the State Administrative Agency to:

              Recommendation #6: Ensure that each subgrantee maintain a
              detailed equipment list as required by federal regulations and State
              policy.

     Management Comments and Auditors’ Analysis
              FEMA verbally concurred with the recommendation.

              We received verbal and written agreement with the
              recommendation from the State Administrative Agency. The State
              Administrative Agency stated that generally it maintained
              equipment lists in the subgrant files; however, during the audit it
              discovered that some of the equipment lists were missing from the
              subgrant files or were incomplete.

              The State Administrative Agency has revised and updated its
              policies and procedures related to the equipment list. Specifically,
              the equipment lists are now to be filed in a specific location in the
              subgrant file and all equipment lists must agree with the equipment
              category on the financial reports. Further, reimbursement to
              subgrantees for equipment purchases will not be processed until a
              completed equipment list is submitted.

              We believe that the State Administrative Agency’s actions
              adequately addressed the recommendation, and therefore this
              recommendation is considered resolved and closed.




The State of West Virginia’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2005 through 2007 


                                     Page 17
Financial Status Reports Were Submitted Late
      The State Administrative Agency submitted 9 of 33 Financial Status
      Reports late. Two of the nine late reports were for FY 2005 when the
      reports were due 45 days after the end of the reporting period. The
      remaining seven late reports were for FYs 2006 and 2007 grants, when the
      reporting timeframe was 30 days. Table 3, Untimely Financial Status
      Reports, shows the range and average number of days reports were
      submitted late when compared to the requirements of the DHS Homeland
      Security Grant Program Guidelines and Application Kits for FY 2005,
      2006, and 2007.

                                                 Table 3

                       West Virginia Homeland Security Grant Awards
                               Fiscal Years 2005 through 2007

                               Untimely Financial Status Reports
                                               No. of       Range of            Average #
                               Total No. of   Reports         Days               of Days
                                 Reports     Submitted     Submitted             Report
          Grant Award           Submitted       Late          Late               Delayed
       FY 2005
       State Homeland                17              2            36 to 69           53
       Security Program
       FY 2006
       State Homeland                10              5             1 to 8            5
       Security Program
       FY 2007
       State Homeland                6               2             1 to 6            4
       Security Program
               Total                 33              9            1 to 69            15


      For FY 2005, a change in the agency designated as the State
      Administrative Agency caused delays in submission of the Financial
      Status Reports. State Administrative Agency officials stated that reports
      were delayed for FYs 2006 and 2007 because the State did not become
      aware of the change in the due date – from 45 days to 30 days – in a
      timely manner.

      Delays in the submission of Financial Status Reports may hamper
      FEMA’s ability to effectively and efficiently monitor program
      expenditures and may prevent the State from drawing down funds in a
      timely manner, and ultimately affects the functioning of the program.



 The State of West Virginia’s Management of State Homeland Security Program Grants
                   Awarded During Fiscal Years 2005 through 2007

                                     Page 18
     Recommendation
              We recommend that the Administrator, Federal Emergency
              Management Agency, require the State Administrative Agency to:

              Recommendation #7: Develop and update, as necessary, policies
              and controls to ensure timely submission of Financial Status
              Reports in accordance with grant guidelines.

     Management Comments and Auditors’ Analysis
              FEMA officials verbally concurred with the recommendation.

              We received verbal and written agreement with the
              recommendation from the State Administrative Agency. The State
              Administrative Agency stated that it submitted SF 269s within a
              45 day window because it was not aware that the requirement had
              been changed to 30 days. The State Administrative Agency said it
              was never prevented by DHS from drawing down funds; therefore
              subgrantee reimbursements were never delayed. The State
              Administrative Agency said that all future reports will be
              submitted within the required 30 day window.

              We believe that the State Administrative Agency’s actions
              adequately address the recommendation, and therefore this
              recommendation is considered resolved and closed.




The State of West Virginia’s Management of State Homeland Security Program Grants 

                  Awarded During Fiscal Years 2005 through 2007 


                                     Page 19
Appendix A
Purpose, Scope, and Methodology

                      The purpose of this audit was to determine whether the State of 

                      West Virginia distributed and spent State Homeland Security

                      Program grant funds strategically, effectively, and in compliance 

                      with laws, regulations, and guidance. The goal of the audit was to 

                      identify problems and solutions that can help the State better 

                      prepare for and respond to threats and acts of terrorism. The audit 

                      further enabled us to answer the following nine researchable 

                      questions:


                      .   Were measurable goals developed from plans?

                      .   Do funded plans link all hazards capabilities to goals?

                      .   Were funds and resources distributed based on goals?

                      .   Does the State accurately measure risk? 

                      .   Does the State measure response capability?

                      .   Can the State demonstrate improved performance? 

                      .   Were grants administered compliantly? 

                      .   Did the State monitor grant programs?

                      .   What innovative practices can be used by other states?


                      The scope of the audit included the State Homeland Security 

                      Program for Fiscal Years 2005, 2006, and 2007 described in the 

                      Background section of this report. 


                      The audit methodology included work at DHS Headquarters, State 

                      of West Virginia offices responsible for the management of the 

                      grants, and various subgrantee locations. To achieve our audit 

                      objectives we analyzed data, reviewed documentation, and 

                      interviewed key state and local officials directly involved in the 

                      management and administration of the State of West Virginia’s 

                      Homeland Security Grant Programs. We conducted 25 visits to 

                      11 counties representing all 6 of the state’s regions, 8 cities, and 

                      5 state agencies in order to determine whether program grant funds 

                      were expended according to grant requirements and State- 

                      established priorities. 


                      We conducted site visits to the following first responders and local 

                      jurisdictions: 


                      .   Region I:

                          o City of Parkersburg
                          o City of Williamstown
                          o Kanawha County Commission



        The State of West Virginia’s Management of State Homeland Security Program Grants 

                          Awarded During Fiscal Years 2005 through 2007 


                                             Page 20
Appendix A 

Purpose, Scope, and Methodology (continued) 


                      .   Region II:
                          o City of Fairmont Fire Department
                          o City of Morgantown Fire Department
                          o City of Morgantown Police Department
                          o City of Shinnston Police Department
                          o Harrison County Police Department
                          o Monongalia County Office of Emergency Management
                          o Monongalia County Sheriff’s Department

                      .   Region III:
                          o City of Petersburg Police Department
                          o Hampshire County Office of Emergency Management
                          o Jefferson County 911 Dispatch Center
                          o Morgan County 911 Dispatch Center

                      .   Region IV:
                          o Randolph County 911 Dispatch Center

                      .   Region V:
                          o City of Beckley Fire Department
                          o City of Lewisburg Fire Department
                          o McDowell County Sheriff’s Department

                      .   Region VI:
                          o Boone County Commission
                          o City of Huntington
                          o Wayne County Sheriff’s Department

                      .   State Agencies:
                          o West Virginia Department of Agriculture
                          o West Virginia Division of Natural Resources
                          o West Virginia Division of Highways
                          o West Virginia State Fire Marshal
                          o West Virginia State Police

                      At each location, we interviewed responsible officials, reviewed
                      documentation supporting the State and subgrantee’s management
                      of the awarded grant funds, and physically inspected some of the
                      equipment procured with the grant funds. We conducted our
                      fieldwork between January 2009 and March 2009 in accordance
                      with Government Auditing Standards as prescribed by the
                      Comptroller General of the United States (Yellow Book 2007
                      Revision). Those standards require that we plan and perform the
                      audit to obtain sufficient, appropriate evidence to provide a

        The State of West Virginia’s Management of State Homeland Security Program Grants 

                          Awarded During Fiscal Years 2005 through 2007 


                                             Page 21
Appendix A 

Purpose, Scope, and Methodology (continued) 


                      reasonable basis for our findings and conclusions based on our
                      audit objectives. We believe that the evidence obtained provides a
                      reasonable basis for our findings and conclusions based on our
                      audit objectives.

                      Although this audit included a review of costs claimed, we did not
                      perform a financial audit of those costs. This was a performance
                      audit as defined by Chapter 1 of the Standards and included a
                      review and report of program activities with a compliance element.
                      Williams, Adley & Company, LLP was not engaged to and did not
                      perform a financial statement audit, the objective of which would
                      be to express an opinion on specified elements, accounts, or items.
                      Accordingly, we were neither required to nor expressed an opinion
                      on the costs claimed for the grant programs included in the scope
                      of the audit. Had we been required to perform additional
                      procedures or conduct an audit of financial statements in
                      accordance with generally accepted auditing standards, other
                      matters might have come to our attention that would have been
                      reported. This report relates only to the programs specified and
                      does not extend to any financial statements of the State of West
                      Virginia.

                      While the audit work was performed and the report was prepared
                      under contract, the audit results are being reported by the DHS
                      Office of the Inspector General to appropriate FEMA and State of
                      West Virginia officials.




        The State of West Virginia’s Management of State Homeland Security Program Grants 

                          Awarded During Fiscal Years 2005 through 2007 


                                             Page 22
Appendix B
Organization Chart



           West Virginia Department of Military Affairs and Public Safety




        The State of West Virginia’s Management of State Homeland Security Program Grants
                          Awarded During Fiscal Years 2005 through 2007 


                                            Page 23 

Appendix C
Management Comments to the Draft Report




        The State of West Virginia’s Management of State Homeland Security Program Grants 

                          Awarded During Fiscal Years 2005 through 2007 


                                             Page 24 

Appendix C
Management Comments to the Draft Report


                           Management Comments
Risk Assessment Was Not Documented (Recommendation #1)
West Virginia is currently in the process of revising its State Homeland Security Strategy.
A clear and current understanding of the risk and threats to the state is fundamental to this
process. To that end, the state has and continues to collect statewide risk information as a
basis for the Strategy.

Furthermore, the state has begun assessing risk as a basis for individual grants.
Beginning in FY 2007, a Project Concept application was developed and all local
applicants are required to submit a completed document as part of the grant process. This
document asks the applicant to identify and describe risk and capabilities and establish
measurable outcomes. Additionally, eligibility criteria were established and implemented
concurrently to ensure applicants were incorporating national doctrine (i.e., NIMS,
HSEEP, continuity planning) in the identification and resolution of gaps in preparedness
planning relative to specific risks.

Regional grant prioritization committees have been formed in each of the state’s
homeland security regions to provide recommendations of which Project Concepts to
fund. These committees discuss threats and needs specific to the region and establish
funding priorities as a precursor to reviewing the applications.

As to the Office of Inspector General’s (OIG’s) recommendation relating to the
development and retention of data usage procedures in identifying and analyzing threats
and vulnerabilities, we agree. Therefore, we will develop and implement a written policy
and corresponding procedures in accordance with the OIG’s recommendation.

Analysis of Capabilities and Performance Was Not Performed
(Recommendation #2)
West Virginia understands the importance of analyzing capability and other data to
measure progress. However it is also important to note that much of West Virginia’s
early grant applications were to advance local entities up to achieving a level playing
field with other states. Whereas elsewhere in the country, equipment needs are outmoded
and being updated and replaced utilizing homeland security funding streams, in many
places in West Virginia, initial very basic critical purchases were still needed. Equipment
such as radios, computers and the like are taken for granted in other parts of the country,
but in West Virginia some of our state’s cash-strapped communities have been in the
position of having to share one or two radios if they have any at all, or couldn’t afford
even the most basic of computers, even if they had access to broadband service. These
communities are now in a position of having moved from nonexistent capability to some.


          The State of West Virginia’s Management of State Homeland Security Program Grants 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 25 

Appendix C
Management Comments to the Draft Report


As explained elsewhere in this document, in the early years reported herein, the HSSAA
used its very limited resources to implement the new grant procedures as best it could.
With our hiring of the full-time on-site monitor the process has continued to evolve and
improve.

Your recommendation to “develop and implement procedures analyzing capability and
performance data to determine improvements in performance and progress towards
achieving program goals” is a good one and we agree. Accordingly, although our Project
Concept document referenced in the previous response includes a field for a description
of current capabilities, West Virginia will revise the document to include how the
proposal will improve the applicant’s capability in quantifiable measures. Additional
procedures will be developed and implemented to include a method of review to measure
progress in our on-site monitoring as well as our desk monitoring, in accordance with the
OIG’s recommendation. Finally, we will expand our training to include additional
education relating to the Target Capabilities and how to appropriately incorporate them in
preparedness planning.

Subgrantee Monitoring Procedures and On-Site Visits Were
Insufficient (Recommendations #3 and #4)
When the HSSAA was reorganized and “stood up” operations on September 1, 2005,
there were no policies and procedures in place regarding monitoring of subgrants. The
evolution began of slowly developing monitoring protocol and implementing procedures.
The new protocol was developed fairly quickly and from September 2005 through
December 2007 the HSSAA utilized limited available resources to implement the
procedures the best it could. All subgrants were desk monitored monthly to ensure 100%
compliance regarding allowable costs and on-site monitoring was conducted on a
sampling of subgrantees.

In December 2007, the HSSAA hired a full-time on-site monitor with the primary
responsibility of conducting on-site monitoring of subgrants. This process has continued
to evolve and improve and this audit specifically points out that “The State
Administrative Agency has nonetheless made improvements in the number of on-site
monitoring reviews performed.”

The HSSAA will review its monitoring policy and procedures to incorporate the OIG’s
recommendations. Moreover, it is the intent of the HSSAA to conduct at least one on-
site monitoring visit to 100% of the 2007 HSGP subgrants and subsequently on-site
monitor 100% of all future subgrants including the 2008 and 2009 HSGP. The HSSAA
will continue to desk monitor on a monthly basis 100% of subgrants which will continue
to ensure complete compliance with issues related to allowability of costs.




          The State of West Virginia’s Management of State Homeland Security Program Grants 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 26 

Appendix C
Management Comments to the Draft Report


Grant Funds Were Not Obligated Timely (Recommendation #5)
As stated in the audit, “FEMA officials explained that there were extenuating
circumstances that contributed to the grant funds not being obligated in a timely manner
in FYs 2005 through 2007. In FY 2005, the State spent a significant amount of time
working to resolve an audit finding that questioned millions of dollars, resulting in all
programmatic expenditures being placed on hold for an extended period. In FY 2006
and 2007, the State struggled to establish the regionalization concept and needed to
overcome initial resistance to this concept, delaying the budget submission and review
process.”

The HSSAA ensures that the required 80% of funding is obligated to locals per the
guidelines and that projects are implemented effectively and efficiently. While the
HSSAA is very cognizant of the 60 day requirement, the HSSAA operates in a mode that
the primary concern is not obligating funding quickly, but obligating funding as
effectively and efficiently as possible for allowable costs with detailed budgets which
ensure the State is as safe as possible. The HSSAA involves local jurisdictions in the
development of the detailed budgets which takes time in the organization and
implementation and in addition there are local customary procedures that counties must
follow in order to officially apply for and accept subgrant funding.

Again, the HSSAA is very cognizant of this situation and will continue to strive to
obligate funding as quickly as possible without jeopardizing public safety.

Detailed Equipment List Was Not Maintained (Recommendation #6)
Generally, the HSSAA did maintain equipment list forms in the subgrant files; however,
it was discovered during the audit that some of the equipment list forms were missing
from the subgrant files or incomplete. The auditors indicated that the form itself was
fairly good and collected most information needed. As a result of discussion during the
audit, a column indicating disposition has been added to the equipment list to capture
date and reason for equipment retirement.

The HSSAA has revised and updated the policies and procedures related to the
equipment list form. Specifically, the equipment list forms are now to be filed in a
uniform location in the subgrant file and all equipment list forms must balance with the
equipment category on the financial reports. To ensure there are not missing equipment
list forms in the future, reimbursements to subgrantees for equipment are not processed
until a completed equipment list form is submitted.




         The State of West Virginia’s Management of State Homeland Security Program Grants 

                           Awarded During Fiscal Years 2005 through 2007 


                                              Page 27 

Appendix C
Management Comments to the Draft Report


Financial Status Reports Were Submitted Late (Recommendation #7)
The HSSAA which “stood up” operations in September 2005 has been submitting SF
269s within a 45 day window after the close of the quarter which was the original
requirement. The HSSAA did not know that the requirement had been changed to 30
days and therefore some reports where submitted a few days late. The HSSAA was never
forbidden from drawing down funds from DHS, therefore subgrantee reimbursements
were never held up. All future reports will be submitted within the required 30 day
window.




         The State of West Virginia’s Management of State Homeland Security Program Grants 

                           Awarded During Fiscal Years 2005 through 2007 


                                              Page 28 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




        The State of West Virginia’s Management of State Homeland Security Program Grants 

                          Awarded During Fiscal Years 2005 through 2007 


                                             Page 29 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
